IN THE SUPREME COURT OF'THE UNITED STATES
No.

Jaxp LeTunNpR,

19--

TREASURER oF THE SrATE oF KANSAS,

Petitioner,
V.

UNrrnl StRtps

ANnnee LEA, tN HER OFFICIAL CAPACiTY
AS AUDITOR OF THE StAtP OF ARKANSAS,
Respondents.
OF AMERICA AND

CERTIFICATE OF WORD COUNT
Pursuant to RuIe 33.1(h) of the Rules of this Court, I certify that the
accompanying Petition for a Writ of Certiorari to the United States Court of Appeals

for the Federal Circuit, which was prepared using Century Schoolbook l2-point
typeface, contains 7,846 words, excluding the parts of the document that are
exempted by RuIe 33.1(d). This certificate was prepared in reliance on the word-

count function of the word-processing system (Microsoft Office Word 2013) used
to prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 8,2020.

ru#

e#*fu*'e*:

David C. Frederick
Coun sel of Record for Petitioner

